<html>
<title> - BUSINESS MEETING: MARKUP OF COMMITTEE RESOLUTION 115-19</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        BUSINESS MEETING: MARKUP OF COMMITTEE RESOLUTION 115-19

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
                                   
                
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-061                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>


                   
                   Committee on House Administration 
                   

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

 
        BUSINESS MEETING: MARKUP OF COMMITTEE RESOLUTION 115-19

                              ----------                              


                         TUESDAY, JUNE 26, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:06 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Smith, 
Loudermilk, and Brady.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Steven Wall, Deputy 
General Counsel; Dan Jarrell, Legislative Clerk; Amanda Anger, 
Professional Staff Member; Matt Field, Director of Oversight; 
Erin McCracken, Communications Director; Jamie Fleet, Minority 
Staff Director; Khalil Abboud, Minority Deputy Staff Director; 
and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee meeting. A quorum is 
present, so we may proceed.
    The meeting record will remain open for 5 legislative days 
so that Members may submit any materials that they wish to be 
included therein.
    There is one item on our docket today, Committee Resolution 
115-19, a resolution to disburse $200,000 from the Committee's 
Reserve Fund to the Committee on Veterans' Affairs. This 
disbursement is in response to a request the Committee received 
from the Chairman and Ranking Member of the House Committee on 
Veterans' Affairs.
    The disbursement will provide resources for the Committee 
on Veterans' Affairs to establish a new Technology 
Modernization Subcommittee. This new subcommittee will focus 
its oversight efforts on the VA's $15.8 billion Electronic 
Health Record Modernization Program, by far the largest 
electronic health record transition ever attempted as well as 
one of the Federal Government's biggest IT projects.
    I would now like to recognize my colleague and the 
Committee's Ranking Member, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, I support the funding request for the 
Veterans' Committee. And I have received assurances from the 
Ranking Member that he will have access to one-third of the 
funds, consistent with their tradition of how money is spent on 
a committee--for a committee is handled.
    With that assurance, I support the request and urge my 
colleagues to do the same.
    And I yield back.
    The Chairman. The gentleman yields back.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    I now call up and lay before the Committee Committee 
Resolution 115-19. Without objection, the first reading is 
dispensed with, and the resolution is considered read and open 
for amendment.
    [The information follows:]
    [[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Would any Member like to make a statement or 
offer an amendment?
    Seeing none, I move the Committee adopt Committee 
Resolution 115-19.
    The question is on the motion.
    All those in favor, signify by saying aye.
    All those opposed, signify by saying nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Does any Member wish to submit supplemental or minority 
views?
    Seeing none, for all the matters considered here today, I 
would ask unanimous consent that the staff be authorized to 
make technical and conforming changes if necessary.
    Without objection, so ordered.
    That concludes today's markup. Without objection, the 
markup is adjourned.
    [Whereupon, at 11:09 a.m., the Committee was adjourned.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
